7

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF NORTH CAROLINA
MICHAEL ALLEN BULLOCK,
Plaintiff,
v.

ERIK A. HOOKS, Secretary, North
Carolina Department of Public
Safety,
Defendant.

)
)
)
)
)
)
)
)
)
)
)

L19-CV-1092

JUDGMENT
For the reasons set forth in the Order filed contemporaneously with this Judgment,
It is hereby ORDERED AND ADJUDGED that the defendant’s motion for
summary judgment, Doc. 4, is GRANTED and this case is DISMISSED with prejudice.
This the 24th day of January, 2020.

UNITED STATES DISTRICT JUDGE

Case l:19-cv-01092-CCE-LPA Document 9 Filed 01/24/20 Page 1 of 1

kI

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF NORTH CAROLINA
MICHAEL ALLEN BULLOCK,
Plaintiff,
v.
ERIK A. HOOKS, Secretary, North
Carolina Department of Public Safety,
Defendant.

)
)
)
)
)
)
)
)
)
)

U19-CV-1092

ORDER
Petitioner Michael Bullock, a prisoner of the State of North Carolina, filed a
petition for a writ of habeas corpus under 28 U.S.C. § 2254 alleging ineffective assistance
of counsel and sentencing errors arising out of his state court convictions. Because Mr.
Bullock has offered no evidence to support his claims, respondent’s motion for summary
judgment will be granted, and Mr. Bullock’s petition is denied.
Background
Mr. Bullock pled guilty to and was convicted of charges of habitual impaired
driving and aggravated impaired driving, along with a number of misdemeanors, in
Stokes County Superior Court on April 23, 2019. Docs. 5-2, 5-3. At his plea hearing,
Mr. Bullock confirmed that he understood the nature of the proceeding, the charges to
which he was pleading guilty, and the rights he was relinquishing by pleading guilty.
Doc. 5-2. He admitted to the existence of aggravating factors and sentencing points that
affected his prior record level, and he acknowledged that by pleading guilty he was
giving up his right to have a jury determine these. Id. He further acknowledged that

Case l:19-cv-01092-CCE-LPA Document 8 Filed 01/24/20 Page 1 of 6

—

there would be two judgments for his offenses and that his second sentence “shall run at
the expiration” of the first. Id. at 4. Finally, he affirmed that no one had made any
promises or threats to induce his plea. Id. The Superior Court accepted his guilty plea
and sentenced Mr. Bullock to 28 to 43 months for habitual impaired driving, and 12
months for aggravated impaired driving, to run consecutively. Doc. 5-3 at 2, 4. Mr.
Bullock did not appeal.
On July 23, 2019, Mr. Bullock filed a pro se motion for appropriate relief in state
Superior Court. Doc. 1 at 16-20. In his MAR, Mr. Bullock asserted that he did not agree
to plead to consecutive sentences for his convictions, that he was sentenced at the wrong
prior record level, and that he did not receive enough credit for time served before his
conviction. Id. The Superior Court summarily denied his motion. Id. at 23-24. The
court found that the plea transcript specifically contemplated two judgments and
indicated that the sentences would run consecutively, id. at 24, and that Mr. Bullock was
properly sentenced as a record level 5 with 14 record level points. Id. Mr. Bullock filed
a petition for a writ of certiorari in the North Carolina Court of Appeals, Doc. 5-4 at 2-4,
which was dismissed for failure to attach supporting documents. Doc. 5-5.
On October 28, 2019, Mr. Bullock filed the pending writ for habeas corpus under
28 U.S.C. § 2254. Doc. 1. He contends that his attorney told him “he could beat the
DWI charge at the expiration of [his] first sentence,” that his prior record level points
were not what he was told they would be, and that he “felt pressured to enter the plea.”
Id. at 5. He also contends that his prior record level was miscalculated and that, as a

2

Case l:19-cv-01092-CCE-LPA Document 8 Filed 01/24/20 Page 2 of 6

result, he was sentenced in the incorrect range. Id. at 7, 18. The respondent filed an
answer, Doc. 3, and moved for summary judgment. Doc. 4.
Analysis
A. Legal Standard
Summary judgment is appropriate when there is no genuine dispute of material
fact and the moving party is entitled to judgment as a matter of law. See Anderson v.
Liberty Lobby, Inc., All U.S. 242, 247-49 (1986). At summary judgment, the Court
views the facts and draws all reasonable inferences in the light most favorable to the non­
moving party. See id. at 255; see also Shaw v. Stroud, 13 F.3d 791, 798 (4th Cir. 1994).
Summary judgment applies to habeas proceedings. See Brandt v. Gooding, 636 F.3d 124,
132 (4th Cir. 2011).
B. Ineffective Assistance of Counsel
Mr. Bullock first claims he received ineffective of counsel.1 Specifically, he
contends that his lawyer was ineffective in telling him he could beat his DWI charge,
misrepresenting his prior record points, and pressuring him to plead guilty. Doc. 1 at 5.
To demonstrate ineffective assistance of counsel, a petitioner must show that
counsel’s performance was deficient and that but for counsel’s deficient performance,

1 Mr. Bullock’s petition labels his first claim as a due process and equal protection violation,
Doc. 1 at 5, but the supporting facts he includes relate to his attorney’s representation. Id. His
reply brief addresses this claim as an ineffective assistance of counsel claim, Doc. 7, and it is not
otherwise clear how the facts alleged would support a due process or equal protection claim. See
Beaudett v. City ofHampton, 775 F.2d 1274, 1278 (4th Cir. 1985) (noting that courts are not
required to “construct full blown claims from sentence fragments”). The Court construes Mr.
Bullock’s first claim as an ineffective assistance of counsel claim.
3

Case l:19-cv-01092-CCE-LPA Document 8 Filed 01/24/20 Page 3 of 6

there was a reasonable probability of a different result. See Strickland v. Washington,
466 U.S. 668, 687, 694 (1984). Courts “must be highly deferential” in evaluating
counsel’s performance and apply “a strong presumption that counsel’s conduct falls
within the wide range of reasonable professional assistance” and that counsel “made all
significant decisions in the exercise of reasonable professional judgment.” Id. at 689-90.
To overcome that presumption and establish deficient performance, a petitioner “must
show that counsel failed to act reasonably considering all the circumstances.” Cullen v.
Pinholster, 563 U.S. 170, 189 (2011).2 The question for a federal habeas court “is not
whether counsel’s actions were reasonable” but “whether there is any reasonable
argument that counsel satisfied Strickland's deferential standard.” Harrington v. Richter,
562 U.S. 86, 105 (2011).
Mr. Bullock’s ineffective assistance of counsel claims are not supported by the
record. He claims that his attorney told him “that he could beat the DWI charge at the
expiration of [his] first sentence,” that “the prior record points were not what [he] was
told they would be,” and that he “felt pressured to enter the plea.” Doc. 1 at 5. These
assertions are belied by the plea transcript Mr. Bullock signed under penalty of perjury. ,
He agreed explicitly that “[t]here shall be two judgments”: one for the habitual impaired
driving conviction and one for the aggravated impaired driving offense, which “shall run
at the expiration” of the habitual impaired driving sentence. Doc. 5-2 at 4. The plea
• agreement was silent as to his prior record points, id., and he affirmed that no one had

2 The Court omits internal citations, alterations, and quotation marks throughout this opinion,
unless otherwise noted. See United States v. Marshall, 872 F.3d 213, 217 n.6 (4th Cir. 2017).
4

Case l:19-cv-01092-CCE-LPA Document 8 Filed 01/24/20 Page 4 of 6

made any promises or threats to induce his plea. Id. These “[sjolemn declarations in
open court carry a strong presumption of verity.” Blackledge v. Allison, 431 U.S. 63, 73
74 (1977). His conclusory contentions now that he received “deficient advice” from and
felt pressured by his attorney are not enough to rebut his previous testimony made under
oath or to satisfy the highly deferential standard imposed by Strickland and § 2254(d).
Harrington, 562 U.S. at 105 (“The standards created by Strickland and § 2254(d) are
both highly deferential, and when the two apply in tandem, review is doubly so.”). The
respondent’s motion for summary judgment on petitioner’s ineffective assistance of
counsel claim will be granted.
C. Prior Record Level
Mr. Bullock also challenges his prior record level calculation, used in determining
the presumptive sentence for Mr. Bullock’s felony conviction. Mr. Bullock raised this
issue in his MAR, Doc. 1 at 18, and the Superior Court, after reviewing the record,
denied his motion. Id. at 24.
First, “it is not the province of a federal habeas court to reexamine state-court
determinations on state-law questions. In conducting habeas review, a federal court is
limited to deciding whether a conviction violated the Constitution, laws, or treaties of the
United States.” Estelle v. McGuire, 502 U.S. 62, 67-68 (1991). Whether his prior record
level was properly calculated under North Carolina law is an issue of state law, and to the
extent he contends the state court got it wrong, this claim is not cognizable on federal
habeas review. See 28 U.S.C. § 2254(a); McGuire, 502 U.S. at 67-68; Weeks v.
Angelone, 176 F.3d 249, 262 (4th Cir. 1999); Helms v. Mitchell, No. 1:09CV261-1-MU,
5

Case l:19-cv-01092-CCE-LPA Document 8 Filed 01/24/20 Page 5 of 6

2009 WL 2168893, at *1 (W.D.N.C. July 20, 2009); Kelly v. North Carolina, No. 5:06—
HC-2208-D, 2008 WL 244174, at *7 (E.D.N.C. Jan. 29, 2008).
Second, the Superior Court resolved this claim on the merits in ruling on Mr.
Bullock’s MAR, and he has made no showing that the state court adjudication was
“contrary to, or involved an unreasonable application of, clearly established Federal law,”
nor that it “resulted in a decision that [is] based on an unreasonable determination of the
facts in light of the evidence presented in the State court proceeding.” See 28 U.S.C.
§ 2254(d); Williams v. Taylor, 529 U.S. 362, 405^106 (2000).3 Mr. Bullock’s conclusory
assertion that his record level was calculated incorrectly, without any evidence or
arguments to support it, is insufficient to establish a violation of federal law.
It is ORDERED that the respondent’s motion for summary judgment, Doc. 4, is
GRANTED and the petition is DISMISSED. The Court finds no substantial issue for
appeal concerning the denial of a constitutional right affecting the conviction, nor a
debatable procedural ruling, and a certificate of appealability is DENIED.
This the 24th day of January, 2020.

UNITED STATES DISTRICT JUDGE

3 According to the worksheet, it appears Mr. Bullock had 13 countable misdemeanor
convictions and two countable felony convictions. Doc. 1 at 21-22.
6

Case l:19-cv-01092-CCE-LPA Document 8 Filed 01/24/20 Page 6 of 6

FILED: June 23, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6182
(1:19-cv-01092-CCE-LPA)

MICHAEL ALLEN BULLOCK
Petitioner - Appellant
v.
ERIK A. HOOKS
Respondent - Appellee

JUDGMENT
In accordance with the decision of this court, a certificate of appealability is
denied and the appeal is dismissed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR. CLERK

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-6182
MICHAEL ALLEN BULLOCK,
Petitioner - Appellant,
v.
ERIK A. HOOKS,
Respondent - Appellee.

Appeal from the United States District Court for the Middle District of North Carolina, at
Greensboro. Catherine C. Eagles, District Judge. (l:19-cv-01092-CCE-LPA)
Submitted: June 18, 2020

Decided: June 23, 2020

Before FLOYD, THACKER, and RUSHING, Circuit Judges.
Dismissed by unpublished per curiam opinion.
Michael Allen Bullock, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

A

PER CURIAM:
Michael Allen Bullock seeks to appeal the district court’s order denying relief on
his 28 U.S.C. § 2254 (2018) petition. The order is not appealable unless a circuit justice
or judge issues a certificate of appealability. See 28 U.S.C. § 2253(c)(1)(A) (2018). A
certificate of appealability will not issue absent “a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2) (2018). When the district court denies relief
on the merits, a prisoner satisfies this standard by demonstrating that reasonable jurists
could find the district court’s assessment of the constitutional claims debatable or wrong.
See Buckv. Davis, 137 S. Ct. 759, 773-74 (2017). When the district court denies relief on
procedural grounds, the prisoner must demonstrate both that the dispositive procedural
ruling is debatable and that the petition states a debatable claim of the denial of a
constitutional right. Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012) (citing Slack v.
McDaniel, 529 U.S. 473, 484 (2000)).
We have independently reviewed the record and conclude that Bullock has not made
the requisite showing. Accordingly, we deny a certificate of appealability, deny leave to
proceed in forma pauperis, deny Bullock’s motions for appointment of counsel and
transcripts, and dismiss the appeal. We dispense with oral argument because the facts and
legal contentions are adequately presented in the materials before this court and argument
would not aid the decisional process.
DISMISSED

2

(
k

STATE OF NORTH CAROLINA
STOKES

File No.

18CRS 050704
In The General Court Of Justice
[x] District □ Superior Court Division

County

STATE VERSUS

WORKSHEET PRIOR RECORD
LEVEL FOR FELONY SENTENCING
AND PRIOR CONVICTION LEVEL
FOR MISDEMEANOR SENTENCING

Name And Address Of Defendant

MICHAEL ALLEN BULLOCK
2506 AMOSTOWNROAD
ST CH RD
SANDY RIDGE
Social Security No.

.#
. 4

NC

27046

***_**_£247

NC0533840A

Race

Sex

(For Offenses Committed On Or After Dec. 1, 2009)

DOB

M
06/23/1963
I. SCORING PRIOR RECORD/FELONY SENTENCING

W
,‘;V

NUMBER

2
13

(STRUCTURED SENTENCING)

SID No.

G.S. 15A-1340.14, 15A-1340.21
' ; ,i

TYPE

FACTORS

Prior Felony Class A Conviction

X10

Prior Felony Class B1 Conviction

X9

Prior Felony Class B2 or C or D Conviction

X6

Prior Felony Class E or F or G Conviction

X4

Prior Felony Class H or I Conviction

X2

Prior Class A1 or 1 Misdemeanor Conviction (see note on reverse)

X1

POINTS

R

SUBTOTAL ^
Defendant's Current Charge(s):

HABITUAL DWI

If all the elements of the present offense are included in any prior offense whethe. ,r not the prior offenses were used in
determining prior record level.
If the offense was committed while the offender was:
I

| serving a sentence of imprisonment; or

+1

/

ffifon probation, parole, or post-release supervision;

Q on escape from a correctional institution.

+1

NOTE: If part of a plea transcript, use form AOC-CR-300 ("Transcript Of Plea"), Nos, 16 and 17.
State (if other than NC)
County
File No.

I

TOTAL y
•V-;

II. CLASSIFYING PRIOR RECORD/CONVICTION LEVEL
FELONY
MISDEMEANOR
NOTE: If sentencing for a misdemeanor, total the number of prior conviction(s) listed
on the reverse and select the corresponding prior conviction level.
No. Of Prior
Convictions
0
1-4
5+

Level

I
II
III

PRIOR
CONVICTION
LEVEL

►

NOTE: If sentencing for a felony, locate the prior record level which corresponds to the
total points determined in Section / above.
Points

Level

0-1

I
II
III
IV

2-5

III

[Xl The Court has determined the number of prior convictions to be

ML

6-9
10-13
14- 17
18 +
|

21

PRIOR
RECORD
LEVEL

V

VI

| The Court finds the prior convictions, prior record points and the prior record
level of the defendant to be as shown herein.

and the level to be as shown above.
|~1 In making this determination, the Court has relied upon the State's evidence
I In making this determination, the Court has relied upon the State’s
of the defendant's prior convictions from a computer printout of DCI-CCH.
evidence of the defendant’s prior convictions from a computer printout of
'Q in finding a prior record level point under G.S. 15A-1340.14(b)(7), theGourt ~
” DCI-CCH.
’
'
has relied on the jury's determination of this issue beyond a reasonable
doubt or the defendant’s admission to this issue.
I

|

| The Court finds that all of the elements of the present offense are included in a prior offense.

|

| For each out-of-state conviction listed in Section V on the reverse, the Court finds by a preponderance of the evidence that the offense is substantially similar to a North
Carolina offense and that the North Carolina classification assigned to this offense in Section V is correct.
s'
)
Court finds that the State and the defendant have stipujaT&d in open court to the prior convictions, points, and repordleyer

D^e

^

Nam^df^residing^udge (typr^orjvfnt)—

AOC-CR-600B, Rev. 5/18

^

© 2018 Administrative Office of the Courts

'Overt
4

SignaUy^

Pttlt

Corrygo^

CflywiCtvoo

w i~VV\ 13 pQ>V\y^
6 Cnt? r\ C

pdibr

0 rv.

0 c>nvlcV>oni

DiOX^

L

p^m-Vj

Qm

a

<',ssiK

pr/fNr-

"TKc

ktonk«shget

piginlvj

£’.W Jl/Qrr>

i m

in

rpcord.

4 +Kg-V Uv*l ^ <Sb>*uU h ck\re

Gn J

c-^goAer>Cg^

as WeA 0,^

tkc

<sloovJ

p A 1 r> ~V~£ ■

Iftbi-t-u^l

tV\cA

i ev* 1 t\/

b <?<?n

sShoui

/3 CfiS fi?Q

4

-f^0^

are

cant be u<S<?A ft r Jto-txnanj pmrpo^SL

Case f;U /foco llCfi5'WI&f And 06 CtfS 110^ as

can’t W U-SeA

ftr

f n loanee mgnt gncS SentenCm^_____

purposes j -fbcrcf^re j'ke f~gr*> gjVwV?^ ps/h-H o£ DuUQ in
CaSQ f;UAfo(Q fr"? Cft 7 b2Qaa; and SCRIMP Can’t b<? Used
■gitWr

because
•ftne

TftifgAtsr-e

DWLR?

1 s nou a

U^rlc^he^

1 iSt.C

Oii\A

l p^\nt AW uW U. J>e>n^

•for

-VW

record

Satn-g,

CcnvAoKsn

level

Sfnte^vceA

a:s a

11 pft!rvV«s

0f\

pr^karfiOPy j

A-V)?

a&

p^-K^Agr jbould. i)-^

p^r^rd

te ve\

1^

Ci

back page

an j &n6» pA)Kyt

t^taU'vn

tKgpeftrs^
pr/^r

C Igj<S 1L On'isd^n^^anoc

w/> tft

cl

poor

fg^

13 py,^-

irL

no.icK^l £K ^aiUck,

USCA4 Appeal: 20-6182

Doc: 15

Filed: 08/11/2020

Pg: 1 of 1

FILED: August 11, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6182
(1:19-cv-01092-CCE-LP A)

MICHAEL ALLEN BULLOCK
Petitioner - Appellant
v.

ERIK A. HOOKS
Respondent - Appellee

ORDER
The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Floyd, Judge Thacker, and Judge
Rushing.
For the Court
/s/ Patricia S. Connor. Clerk

